<html>
<title> - LEGISLATIVE HEARING ON H.R. 2214, H.R. 1380, H.R. 2706, H.R. 2691, H.R. 303, H.R. 1338, H.R. 1302, H.R. 2605 AND H.R. 1384</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







LEGISLATIVE HEARING ON H.R. 2214, H.R. 1380, H.R. 2706, H.R. 2691, H.R. 
           303, H.R. 1338, H.R. 1302, H.R. 2605 AND H.R. 1384

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        WEDNESDAY, JUNE 24, 2015

                               __________

                           Serial No. 114-28

                               __________

       Printed for the use of the Committee on Veterans' Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-645                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA COLEMAN RADEWAGEN, American 
    Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                   RALPH ABRAHAM, Louisiana, Chairman

DOUG LAMBORN, Colorado               DINA TITUS, Nevada, Ranking Member
LEE ZELDIN, New York                 JULIA BROWNLEY, California
RYAN COSTELLO, Pennsylvania          RAUL RUIZ, California
MIKE BOST, Illinois

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


























                            C O N T E N T S

                              ----------                              

                        Wednesday, June 24, 2015

                                                                   Page

Legislative Hearing on H.R. 2214, H.R. 1380, H.R. 2706, H.R. 
  2691, H.R. 303, H.R. 1338, H.R. 1302, H.R. 2605 and H.R. 1384..     1

                           OPENING STATEMENTS

Ralph Abraham, Chairman..........................................     1
Dina Titus, Ranking Member.......................................     2
Jeff Miller, Chairman, Committee of Veterans Affairs.............     3

                               WITNESSES

Hon. Raul Ruiz...................................................     4
Hon. Bill Johnson, U.S. House of Representatives.................     8
    Prepared Statement...........................................    28
Mr. David R. McLeachen, Acting Deputy Under Secretary for 
  Disability Assistance, VBA U.S. Department of Veterans Affairs.    10
    Prepared Statement...........................................    30

        Accompanied by:

    Mr. Matthew Sullivan, Acting Deputy Under Secretary for 
        Finance and Planning and CFO, National Cemetery 
        Administration, U.S. Department of Veterans Affairs
        And
    Mr. David Barrans, Assistant General Counsel, Office of 
        General Counsel, U.S. Department of Veterans Affairs
Mr. Zachary Hearn, Deputy Director for Claims, Veterans Affairs 
  and Rehabilitation Division, The American Legion...............    17
    Prepared Statement...........................................    57
Mr. Paul R. Varela, Assistant National Legislative Director, 
  Disabled American Veterans.....................................    19
    Prepared Statement...........................................    64
Mr. Aleks Morosky, Deputy Director, National Legislative Service, 
  Veterans of Foreign Wars.......................................    20
    Prepared Statement...........................................    73
Ms. Diane Zumatto, National Legislative Director, AMVETS.........    22
    Prepared Statement...........................................    78
Mr. Chris Neiweem, Legislative Associate, Iraq and Afghanistan 
  Veterans of America............................................    23
    Prepared Statement...........................................    83

                             FOR THE RECORD

Statement of Jeffrey Swanson, PhD and Richard Bonnie, LLB........    89
Statement of Lesley Witter, Senior Vice President, Advocacy for 
  the National Funeral Directors Association.....................    97
Statement of Brigadier General (RET) Stephen N. Xenakis, MD......   100
Hon. Bob Lata, U.S. House of Representatives.....................   103
Hon. Bill Shuster, U.S. House of Representatives.................   103
Mr. Blake C. Ortner, Deputy Government Relations, Director, 
  Paralyzed Veterans of America..................................   108
Hon. Gus M. Bilirakis, Subcommittee on Disability Assistance and 
  Memorial Affairs...............................................   110

 
LEGISLATIVE HEARING ON H.R. 2214, H.R. 1380, H.R. 2706, H.R. 2691, H.R. 
           303, H.R. 1338, H.R. 1302, H.R. 2605 AND H.R. 1384

                              ----------                              


                        Wednesday, June 24, 2015

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
Subcommittee on Disability Assistance and Memorial Affairs,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
Room 334, Cannon House Office Building, Hon. Ralph Abraham 
[chairman of the subcommittee] presiding.
    Present:  Representatives Abraham, Titus, Lamborn, 
Brownley, Zeldin, Ruiz, Costello, Bost, Miller, Bilirakis, and 
Walz.
    Dr. Abraham. Good afternoon, everyone. Thank you for your 
patience. This subcommittee will come to order.

          OPENING STATEMENT OF CHAIRMAN RALPH ABRAHAM

    Before we begin, I would like to ask unanimous consent that 
our colleagues Representatives Bilirakis and Walz be allowed to 
sit at the dais, make opening statements and ask questions. I 
understand that Chairman Miller has been delayed, but when he 
arrives that he would also be allowed to sit at the dais, make 
an opening statement and ask questions.
    Hearing no objection, so ordered.
    Again, thank you for being here today. I appreciate you all 
waiting, we had votes, to discuss this legislation opinion 
before the subcommittee concerning disability examinations, 
honoring deceased veterans, fiduciary reform, concurrent 
receipt survivor claims, the appeals backlog, and other 
veterans issues.
    This afternoon, we have nine important pieces of 
legislation before us. I will focus my remarks on H.R. 2214, 
the Disabled Veterans Access to Medical Exams Improvement Act 
of 2015, which I am proud to have introduced.
    Many veterans undergo a VA medical examination in support 
of their application for disability benefits. The problem is 
that there are not enough VA examiners to perform these 
evaluations in a timely manner.
    In 2003, Congress gave VA temporary authority to contract 
with outside physicians to perform disability examinations. 
This has helped reduce the backlog, but that authorization 
expires at the end of this year. Section 2(a) of H.R. 2214 
would extend this temporary authorization through December 
31st, 2017.
H.R. 2214 includes another provision which would make it easier 
and convenient for veterans to schedule these examinations. 
Veterans in rural areas like the 5th District of Louisiana, 
which I represent, often have to travel many miles to see a VA 
facility, in order to see a VA examiner or a disability 
examination. It is especially difficult to schedule these 
examinations if the veteran needs to see a specialist such as a 
cardiologist or an orthopedic surgeon.
    My bill would make it easier for VA to arrange for the 
veteran to get a disability examination by permitting licensed 
physicians to conduct these examinations anywhere in the United 
States as long as they are a doctor under current VA contract.
    Enabling contract specialists to conduct more examinations 
will also free up VA doctors to devote more time to treating 
veterans rather than conducting disability examinations.
    Finally, the bill would expand a pilot program that 
authorizes the VA to use contract physicians in some regional 
offices. Section 2(c) would allow this pilot to continue in 15 
regional offices. The bill would also establish a criteria VA 
should use when selecting which regional offices should 
participate in the pilot program.
    As a doctor and a veteran, I know how important this bill 
is and I urge my colleagues to support this commonsense 
legislation.
    With that said, I am eager to discuss each of the nine 
pieces of legislation before us here today and I am grateful to 
my colleagues who have introduced these bills and to our 
witnesses for being here to discuss them with us. I look 
forward to a productive and meaningful discussion.
    And I would like to take a minute and share that, while I 
intended to be present for the entire hearing, a last-minute 
scheduling has come up and I will have to leave a little early, 
so you will have to excuse me. And I want to emphasize that I 
appreciate the witnesses that took the time to come here today 
and share their views. I will carefully read the transcript and 
review everyone's testimony as the subcommittee continues to 
consider these bills.
    I will now yield to my colleague Ranking Member Titus for 
any opening statements she may have.

         OPENING STATEMENT OF RANKING MEMBER DINA TITUS

    Ms. Titus. Thank you, Mr. Chairman. If you have to step out 
early, does that mean I get to be in charge?
    Dr. Abraham. I am afraid not.
    Ms. Titus. Oh, okay. Well, thank you for holding the 
hearing today and for your work on these bills.
    As the Chairman said, we are examining nine bills that are 
all important to our nation's heroes, and so I would like to 
commend the sponsors for their hard work in support of our 
veterans.
    First, I would like to highlight H.R. 2691, the Veterans 
Survivors Claims Processing Automation Act. The bill would 
provide VA with the authority to initiate and pay a survivor's 
claim without receipt of a formal application if they have 
enough evidence available to process that claim. This makes 
common sense and lessens the burden on families during the time 
of their distress.
    H.R. 1384, the Honor Americas Guard Reserve Retirees Act, 
which was introduced by Representative Walz of Minnesota, who 
is a member of the full committee and with us here today, is a 
bill that would grant honorary veterans status to retired 
members of the Guard and Reserve who have completed 20 years of 
service. It is time that we gave them this recognition.
    Lastly, I want to discuss my legislation, H.R. 2706. This 
is the Veterans National Remembrance Act. This bill would bring 
an end to an inequity for more than 1.8 million veterans and 
their families spread across 11 states, located mostly in the 
West where distances are long and population centers are small. 
These states represent places that do not have a true national 
cemetery. The state with the largest veterans population that 
is not served by a national cemetery is my home state of 
Nevada, which is home to over 230,000 veterans, 155,000 of whom 
reside in Las Vegas.
    Southern Nevada has a very nice maintained state cemetery, 
but our nation's veterans fought for our nation, not for a 
state, and they deserve the opportunity to be buried in a 
national cemetery without requiring their families to have to 
drive long distances to visit their grave sites.
    My legislation would require every third national cemetery 
to be built in those states with large unserved veteran 
populations. I believe this gets us on track to eventually 
serve these veterans who have been overlooked, despite the fact 
that the NCA has 131 national cemeteries with plans to build 
several more.
    I would like to note, however, unfortunately and to my 
great disappointment, the absence of one bill that I requested 
twice to appear on the committee's agenda and that is H.R. 
1598, the Veterans Spouses Equal Treatment Act, our work today 
is focused on improving the benefits process for our nation's 
heros, but while we are doing that we are ignoring the fact 
that there are veterans who are being prevented from accessing 
the benefits they have already earned. It is not right and I 
believe our committee is missing a chance to correct this 
inequity.
    Last year, under the leadership of Chairman Runyan, we 
included the bill in a legislative hearing and we got only 
positive comments back from the VSO community and the VA.
    As this group of bills, though, that we are considering 
moves forward, I intend to work with all the members. I think 
it is thoughtful legislation. And I thank the witnesses who are 
here today for your assistance in making them better. So I look 
forward to hearing your testimony and I yield back.
    Dr. Abraham. Thank you, Ms. Titus.
    Chairman Miller, thank you for being here today. You are 
now recognized to discuss your bill.

             OPENING STATEMENT OF HON. JEFF MILLER

    Mr. Miller. Thank you very much, Mr. Chairman. I appreciate 
you holding this hearing and I want to talk about H.R. 1380. It 
expands the eligibility for a medallion provided by the VA 
which signifies the veterans status of a deceased individual. 
These medallions are inscribed with the word, ``Veteran,'' 
across the top and the branch of service at the bottom.
    Now, under current law, this medallion may be affixed to a 
privately purchased headstone or marker and is furnished upon 
request for eligible veterans who died on or after November 1st 
of 1990. H.R. 1380 would amend the law to authorize VA to 
provide this medallion for any veteran regardless of the 
veteran's date of death.
    For nearly 40 years, VA has administered various programs 
to provide headstones or marker options for veterans. These 
programs have changed over time, which has caused some 
confusion for veterans and for their families. Sometimes VA has 
provided allowances for private headstones, but at other times 
these allowances were not provided.
    In 2009, VA began providing a medallion as a retroactive 
benefit for veterans who died after the 31st of October in the 
year 1990. This date was chosen because from November 1st, 1990 
through September 11th, 2001 VA did not pay a benefit for the 
purchase of a private headstone or marker for veterans who were 
qualified for interment at a national or state veterans' 
cemetery.
    The medallion has proved to be very much appreciated by the 
veterans and by their families. And this bill would provide 
this benefit to every veteran regardless of the date of his or 
her death. These medallions will ensure that future generations 
are able to identify the final resting place of our nation's 
warriors and to continue to remember and honor the sacrifice 
and service of these heros.
    I want to ask each of you to support H.R. 1380. And, Mr. 
Chairman, thank you again, Ms. Titus, for holding this hearing, 
and I yield back.
    Dr. Abraham. Thank you, Mr. Chairman.

              OPENING STATEMENT OF HON. RAUL RUIZ

    Dr. Ruiz, would you like to speak about you bill?
    Dr. Ruiz. Yes, absolutely.
    Thank you, Mr. Chairman and Ms. Ranking Member, for holding 
this hearing and including my bill, the Veterans Survivors 
Claims Processing Automation Act.
    This simple, commonsense legislation will provide VA the 
statutory authority to expedite payment of certain survivor 
benefits to eligible family members upon the death of a 
veteran.
    When a beloved family member passes away, it is time for 
family, for reflection and for grieving survivors to have the 
time and privacy to mourn however they choose, it is not a time 
for paperwork or bureaucracy. Mourning family members have 
enough to deal with upon the death of cherished veterans and we 
should no longer make navigating the VA bureaucracy part of 
that coping process. The law should not force veterans' loved 
ones to take time away from their family, file a formal claim, 
and wait months on end anxiously to access needed survivor 
benefits the veteran has already earned.
    My bill would authorize the VA to initiate and pay survivor 
benefits without requiring a formal claim as long as sufficient 
evidence exists on record to process survivor benefits. This 
additional authority will allow the VA to proactively disburse 
survivor benefits if they have the information they need 
without forcing bereaved families to file a formal claim and 
wait for the VA claims process to unfold.
    Eligible benefits include funeral and burial expenses, 
survivor pension paid to low-income surviving spouses or 
unmarried children, and dependency benefits for survivors of 
veterans who died from service-connected ailments.
    When a veteran dies, survivors often rely on these benefits 
to stay afloat during an already difficult time. This 
legislation will give survivors their benefits quicker and 
reduce the risk of financial harm to grieving family. This bill 
is a simple, practical solution that will make a difference for 
veterans' families, which is why it has the support of veterans 
in my district and VSOs represented here today.
    The VA has explicitly requested this authority in their 
fiscal year 2016 budget request and concluded that it would not 
increase mandatory costs.
    I look forward to working with veterans, VSOs and the VA to 
advance this legislation and engage on recommendations that all 
of you may have. And I urge my fellow subcommittee members to 
stand up for veteran families and cosponsor this cost-neutral 
bill, advancing it to the floor, and show veterans' survivors 
the support that they really have.
    Thank you. I yield back my time.
    Dr. Abraham. Dr. Ruiz, thank you.
    Mr. Bilirakis, would you like to discuss your bill?
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it. I 
want to thank you and the ranking member, and members of the 
Disability Assistance and Memorial Affairs Committee, and thank 
you for tendering this great bill. Thank you for holding this 
very important hearing and for the opportunity to discuss my 
bill, H.R. 303, the Retired Pay Restoration Act.
    Prior to 2004, existing laws and regulations dictated that 
a military retiree could not receive both payments from the DoD 
and the VA. Through the enactment of the Concurrent Retirement 
and Disability Payments Programs authorized within fiscal year 
2004, the NDAA, those who are 100-percent disabled were able to 
receive both earned benefits for the first time ever. And I 
will add that my father worked on this bill for many, many 
years. He was vice chairman of the Veterans Affairs Committee.
    Since then, the law has expanded the eligibility, allowing 
more retirees to receive both benefits, both payments, like 
those with the 20 or more years of service and a 50-percent or 
higher disability rating through the VA. The program 
established a system which gradually phased in these payments 
through 2014, which is when these retirees would be receiving 
both payments in full.
    While our efforts have made great strides towards resolving 
this issue, much more needs to be done. Statistics reveal that 
there are still nearly 550,000 military retirees who may be 
eligible to receive both military retire pay and a VA 
disability compensation, but are unable to do so under the 
current guidelines of this program.
    In short, this means that there are 550,000 veterans, Mr. 
Chairman, who are currently being denied the benefits they are 
entitled. Given their unwavering sacrifice to this great 
nation, I firmly believe we must provide the benefits they have 
earned. This is unacceptable and this is why I continue to 
advocate for the Retired Pay Restoration Act, which, again, my 
father sponsored during his time in Congress and worked on so 
many years and was successful, but we have got to do more now. 
We have to include everyone.
H.R. 303 would serve to ensure that our nation's veterans are 
not negatively affected by having their military retirement pay 
deducted by the amount of their disability, their VA disability 
compensation. Many have rightly argued that this represents an 
injustice for veterans having one earned benefit pay for the 
other, I think it is very unfair.
    Every Congress I am encouraged by the immense bipartisan 
support for my bill, the Retired Pay Restoration Act. Last 
Congress, H.R. 303 received a total of 107 bipartisan 
cosponsors. This is a clear testament that both sides of the 
aisle recognize that this is an issue that needs to be 
rectified. We have the support from the veterans and the 
organizations that work closely with them.
    I greatly appreciate the support from our witnesses today, 
especially from the VSOs that came to testify before this 
committee. It is clear that there is a need to do more and what 
we need as a nation to do in repaying the brave men and women 
for their sacrifice.
    Military retirement pay and service-connected disability 
compensation are two completely different benefits, one does 
not diminish the merits of the other. It is our responsibility 
to give our veterans what has been earned through service to 
God and country. The question now is, what are we going to do 
about it? H.R. 303 is the clear answer.
    I urge all my colleagues to show your support for our 
nation's heros by cosponsoring and supporting this bill. Let's 
get this done for our veterans, our true heros.
    And I yield back, Mr. Chairman. Thanks for actually 
including this in the hearing today.
    Dr. Abraham. Thank you, Mr. Bilirakis.
    Mr. Bilirakis. It is very important, one of my top 
priorities. Thank you.
    Dr. Abraham. Mr. Walz, would you like to discuss your bill?
    Mr. Walz. Well, thank you, Mr. Chairman. And to you and the 
ranking member, thank you for holding this hearing and bringing 
up important legislation, and also thank you for the role-
modeling you do of working together to further the cause of our 
veterans in a bipartisan manner, it means a lot.
    I am going to speak on the Honor Americas Guard and Reserve 
Retirees Act. For some of you in here this is like the movie 
Groundhog's Day, it is over and over and over. I thank those 
members in here, many of you have voted for this bill on 
numerous occasions.
    A unique thing has happened since 2010, the House has voted 
in favor of this with no opposition every single time. We have 
included it in the NDAA and, unfortunately, it dies in the 
Senate. We have done everything we can to work on this. We have 
seen this happen before with the Clay Hunt Suicide Act where 
one senator can derail it. And so I have appealed to their 
sense of duty, I have appealed to their sense of honor and now 
I may turn to shaming them if they don't do this one this time, 
because this is very frustrating.
    For the new members, what this bill does is it takes our 
Guard and Reserve forces, those women and men who have served 
honorably, flying helicopters, shooting artillery, infantry 
soldiers, service and support. In many cases, they are the 
trainers. These are the senior NCOs who spent 20 years as E-6, 
E-7, trained troops and deployed in support of floods, in 
support of tornados, in hurricanes. They have done their state 
service and in many cases they have done federal service in 
less than 179 days and not in Title 10.
    I have been with many of them when we did three-month-long 
stints north of the Arctic Circle in Norway, training military 
winter operations. So they have done that.
    These are the folks that are held to the exact same 
standards on Army physical fitness, on weapons qualification, 
on schooling. They do their 20 years, they retire, and you know 
what we do? We give them benefits that they have earned. We 
give them medical benefits, we give them educational benefits, 
we do all of those things. The one thing we do not do is we do 
not allow them to call themselves veterans.
    This piece of legislation does not add one financial 
benefit, it does not change what they get, what it changes is 
their ability to call themselves a veteran, because these folks 
now technically have to refer to themselves as military 
retirees. Technically, they cannot use the medallion you heard 
the chairman talk about putting on there.
    And for those who say, well, what is the big deal? The big 
deal is this is about honor. We work hard to say we respect 
your service. These are folks that simply want to have the 
ability to put a veterans' license plate on their car, maybe 
wear a hat that says Army veteran, something, and understand 
that they gave that service and the recognition is for them. 
They don't want to have to mince and talk about it and say, 
well, yeah, I did 20 years and, yeah, I was the First Sergeant 
of the Guard Unit and, yeah, most of these 7s I trained went to 
Iraq and fought nobly and all of that, and we don't do it.
    The push back, if you look, and I want to thank all the 
veterans service organizations who have supported this, the 
only opposition comes from the VA, and the VA's point is that 
we are redefining veteran. I would say to them is we are 
clarifying it because of your misinterpretation of what that 
term meant.
    It has been looked at from every angle, it has been hashed 
over by CBO. Everyone agrees it is not going to add a cost, it 
rectifies a wrong, it is supported by our veterans' groups.
    And this is a group of folks, we understand very clearly, 
when someone is wearing a combat infantry badge or something, 
there is a status given amongst veterans to this. If someone 
does 20 years or they have reached a certain rank, there is a 
sense of status that goes along with this. We are putting 
280,000 of your constituents in the situation of served this 
nation for 20 years or more, did everything right, did 
everything that was asked of them, met all the standards, and 
now we can't call them veterans.
    I have to tell you, when I first introduced this, I thought 
this was a slam dunk, we would rectify it and fix it, and it 
has gone to die an ugly, dishonorable death of no one standing 
up over there and putting their name on it of who is holding it 
up and who is stopping it. If you have got a problem with it, 
and I know it is not going to come from here, I am preaching 
from the choir, but I want us to sing loudly together.
    Let's just finish this one. It doesn't cost us anything, it 
does the right thing. It will make a lot of people appreciate 
it. And I got to tell you, at a time our veterans need to know 
that we hold faith with them, they need to know that the 
country holds faith with them and there are certain things we 
can do. And there is a whole list of really good things here 
and I think we should do them all, but let's hammer this one 
through.
    And I would encourage all of you, go back home, if you can, 
and talk a little bit, you will find these folks on the 
streets. And the biggest thing about this is, the biggest 
surprise is, most people had no idea this was the rule. And I 
have a whole bunch of people who accidentally didn't know and 
now they feel like they did something wrong because they have 
been calling themselves veterans for this time. That is just 
wrong. This can be fixed, it is easy. It is in the NDAA.
    But, Chairman, I thank you and the ranking member. Send a 
strong message to bring back again and, against all odds, maybe 
they will hear us.
    So with that, I thank you for this, encourage your support, 
and I yield back.
    Dr. Abraham. Thank you, Mr. Walz, well said.
    It is an honor today to be joined by our colleague Mr. 
Johnson of Ohio at the witness table and I appreciate you being 
here, Mr. Johnson. You used to serve as the chairman of the 
Subcommittee on Oversight and Investigation, so I am sure it is 
a little bit different from the view down there.
    Mr. Johnson, you are now recognized, sir.

               STATEMENT OF THE HON. BILL JOHNSON

    Mr. Johnson. Thank you, Chairman Abraham and Ranking Member 
Titus and members of the subcommittee. I really appreciate the 
opportunity to testify before you today on H.R. 2605. That is 
important legislation that I introduced to reform the 
Department of Veterans Affairs fiduciary program.
    As many of you know, as the chairman just mentioned, I 
served as the Oversight and Investigations Subcommittee 
chairman on the House Veterans Affairs Committee for the 112th 
Congress. An investigation into the VA's fiduciary program by 
my subcommittee at that time revealed shocking behavior on the 
part of the VA's hired fiduciaries and gross malfeasance on the 
part of the VA to address those issues.
    Some fiduciaries entrusted to manage the finances of our 
nation's heros who were unable to do so themselves were caught 
abusing this system by withholding funds, embezzling veterans' 
money, and other egregious actions.
    Furthermore, I chaired an Oversight and Investigations 
Subcommittee hearing on February 9th, 2012 that exposed many of 
the VA's fiduciary program policies do not correspond with 
actual practices.
    For instance, the VA claims to have a policy stating 
preference for family members and friends to serve as a 
veteran's fiduciary. However, the investigation into the 
fiduciary program revealed instances where this is not the 
case. In one instance, the VA arbitrarily removed a veteran's 
wife who had served as her husband's fiduciary for ten years 
and replaced her with a paid fiduciary.
    There are also many honest and hardworking fiduciaries that 
experience difficulty performing their duties due to the 
bureaucratic nature of the VA's fiduciary program. We owe it to 
America's heros to provide them with a fiduciary program that 
is more responsive to the needs of the veterans it is supposed 
to serve.
    I also had the opportunity to participate in this 
subcommittee's follow-up hearing on the fiduciary program 
earlier this month. It was disheartening to hear that some of 
the same issues from 2012 are ongoing today.
    Additionally, while the VA issued a proposed rule to 
modernize the fiduciary program in January, 2014, the VA has 
yet to issue the final rule.
    For these reasons, I am proud to sponsor H.R. 2605, the 
Veterans Fiduciary Reform Act.
    This important legislation initially introduced in 2012 was 
drafted based on problems uncovered from O&I's hearing and 
investigation, as well as valuable input from veterans' service 
organizations and individuals who have experienced difficulties 
with the program firsthand. It is designed to transform the 
VA's fiduciary program to better serve the needs of our most 
vulnerable veterans and their hardworking fiduciaries. And, 
most importantly, it will protect veterans in the program from 
falling victim to deceitful and criminal fiduciaries.
    Specifically, the Veterans Fiduciary Reform Act would 
require a credit and criminal background check each time a 
fiduciary is appointed, and allow veterans to petition to have 
their fiduciary removed if problems arise. It would also 
decrease the potential maximum fee a fiduciary can receive to 
the lesser of three percent or $35 per month, similar to Social 
Security's fiduciary program. This will help discourage those 
who enroll as VA fiduciaries with only a profit motive in mind.
    Importantly, H.R. 2605 would enable veterans to appeal 
their incompetent status at any time. Additionally, it would 
allow veterans to name a preferred fiduciary such as a family 
member.
    This legislation also addresses the requirement of 
fiduciaries to obtain a bond. While proper in some settings, it 
is inappropriate when it causes unnecessary hardship such as a 
mother caring for her veteran son. This legislation would 
require the VA to consider whether a bond is necessary and if 
it will adversely affect the fiduciary and the veterans he or 
she serves.
    H.R. 2605 would also direct the VA's Under Secretaries for 
Health and Benefits to coordinate their efforts to ensure that 
fiduciaries caring for their loved ones are not overly burdened 
by redundant requirements.
    Lastly, this bill aims to simplify annual reporting 
requirements. Currently, the VA does not have to review a 
fiduciary's annual accounting and, when it does, it places an 
onerous burden on those fiduciaries who are serving out of 
love, not for monetary gain. This bill will implement a 
straightforward annual accounting requirement and give VA the 
opportunity to audit fiduciaries whose accounting is suspect.
    These significant changes would strengthen the VA's 
standard for administering the fiduciary program and increase 
protection for vulnerable veterans. Requiring background checks 
and lowering the fee a fiduciary can charge would also increase 
scrutiny of potential fiduciaries and help root out potential 
predators.
    This legislation also adds a layer of protection for 
veterans with fiduciaries by incorporating the ability for 
veterans to petition to have their fiduciary removed and 
replaced.
    I am proud that this legislation has passed the House of 
Representatives twice now, both in 2012 and in 2013 as part of 
larger legislation. Unfortunately, this important legislation 
has not been considered by the Senate and, therefore, the VA's 
fiduciary program is still in urgent need of reform.
    Chairman Abraham, Ranking Member Titus, thank you again for 
the opportunity to speak on this important legislation and 
these issues. I am hopeful that this legislation will again be 
favorably considered by the Veterans' Affairs Committee and 
this time become law. Our veterans were willing to sacrifice 
everything to serve our nation and they deserve to receive the 
care, the benefits and the respect that they have earned.
    And with that, I yield back. Thank you.

    [The prepared statement of Bill Johnson appears in the 
Appendix]

    Dr. Abraham. Thank you, Mr. Johnson. We appreciate it. 
Thank you for bringing forth this bill and speaking at today's 
subcommittee hearing.
    We will forgo any questioning at this time and any question 
that anyone may have for our colleagues may be submitted for 
the record.
    I now invite our second panel to the table. Mr. David 
McLenachen, the Acting Deputy Under Secretary for Disability 
Assistance of the Veterans Benefits Administration. He is 
accompanied by Mr. Matthew Sullivan, Deputy Under Secretary for 
Finance and Planning, and Chief Financial Officer for the 
National Cemetery Administration. And Mr. David Barrans, 
Assistant General Counsel of the Department of Veterans 
Affairs. We thank you all for being here.
    Mr. McLenachen, you are now recognized for five minutes, 
sir.

STATEMENT OF DAVID R. McLENACHEN, ACTING DEPUTY UNDER SECRETARY 
      FOR DISABILITY ASSISTANCE OF THE VETERANS BENEFITS 
 ADMINISTRATION, ACCOMPANIED BY MATTHEW SULLIVAN, DEPUTY UNDER 
SECRETARY FOR FINANCE AND PLANNING AND CHIEF FINANCIAL OFFICER 
 FOR THE NATIONAL CEMETERY ADMINISTRATION, AND DAVID BARRANS, 
ASSISTANT GENERAL COUNSEL OF THE DEPARTMENT OF VETERANS AFFAIRS

    Mr. McLenachen. Chairman Abraham, Ranking Member Titus and 
members of the committee, thank you for the opportunity to 
present VA's views on several bills that are pending before the 
committee.
    Joining me today from the Department of Veterans Affairs is 
Mr. Matthew Sullivan, Deputy Under Secretary for Finance and 
Planning for the National Cemetery Administration, and Mr. 
David Barrans, Assistant General Counsel.
    Mr. Chairman, we recognize the need for a more streamlined 
appeal process and appreciate the opportunity to comment on 
H.R. 1302, the VA Appeals Backlog Relief Act. However, the 
Department does not support this bill because we believe the 
appeal timeliness should be improved through comprehensive 
reform of the appeal process rather than imposing a statutory 
deadline for one stage of that process.
    We would like to work with the committee to consider 
legislative reforms that will actually streamline the process, 
such as our proposal as fiscal year 2016 budget to expand the 
Board of Veterans' Appeals authority to conduct an initial 
review of evidence submitted during an appeal without remanding 
to VBA.
    Regarding H.R. 1338, the Dignified Interment of Our 
Veterans Act of 2015, while the intent behind requiring this 
study is positive, we are concerned that the study may be 
unnecessary or premature at this time. VA is more than willing 
to work with the committee to gather responsive information on 
unclaimed remains of veterans, but we feel we can accomplish 
this without legislation.
    We are pleased to support H.R. 1380, which would extend 
eligibility for a medallion furnished by VA to signify a 
veteran's status regardless of the date of the veteran's death. 
However, we would like to work with the committee to address a 
few technical concerns about the language in the bill. In 
particular, to ensure the provision of medallions does not 
disrupt the historic landscape of our national cemeteries. For 
this reason, we suggest amending the bill to allow provision of 
medallions for those who served during or after the first World 
War.
    Mr. Chairman, we acknowledge that members of the National 
Guard and Reserves have admirably served this country and in 
recent years have played a very important role in our nation's 
national defense. Nonetheless, we cannot support H.R. 1384, the 
Honor Americas Guard Reserve Retirees Act, because it would 
represent a departure from active service as the foundation for 
veterans status. It would also conflict with the definition of 
veteran in 38 U.S.C. Section 101 and cause confusion about 
entitlement to VA benefits.
    We strongly support the provisions of H.R. 2214, the 
Disabled Veterans Access to Medical Exams Improvement Act, your 
bill, Mr. Chairman, that would extend VA's authority to 
contract for compensation and pension examinations and 
authorize physicians to conduct these examinations in any 
state.
    These provisions are essential to VA's goal of ensuring the 
timely adjudication of disability compensation claims. However, 
we oppose provisions in the bill that would limit our contract 
examination authority to 15 regional offices and prescribe the 
criteria for selecting those regional offices.
    To ensure the timeliness of claim processing now and in the 
future, VA requires the authority to conduct contract 
examinations at as many regional offices as it considers 
appropriate.
    We cannot support H.R. 2605, the Veterans Fiduciary Reform 
Act of 2015, because it would, among other things, create 
disincentives for recruiting paid and volunteer fiduciaries and 
generally add complexity that VA cannot address without 
additional resources.
    For example, the bill would limit fiduciary fees to three 
percent of the monthly benefits paid to a fiduciary on behalf 
of a beneficiary or $35, whichever is lower. This would make it 
difficult for VA to find a fiduciary in cases where there is no 
qualified family member, friend or care provider who is willing 
to serve without a fee. Also, the bill's accounting and 
auditing requirements would add burden of fiduciaries, 90 
percent of whom are volunteers, and would not significantly 
improve VA's oversight.
    As outlined in detail in my written statement, we are 
concerned that several other provisions in the bill would be 
inconsistent with our efforts to transform this important 
program.
    Mr. Chairman, at this time the Department does not have 
views on two bills that are subject of today's hearing, the 
Veterans National Remembrance Act and the Veterans Survivors 
Claims Processing Automation Act. We will continue to 
coordinate views on these matters and upon completion submit 
them to the committee.
    This concludes my statement, Mr. Chairman. We are happy to 
entertain any questions that you or the members may have.

    [The prepared statement of David R. McLenachen appears in 
the Appendix]

    Dr. Abraham. All right. Thank you for your remarks. I will 
begin the questioning, Mr. McLenachen.
    Please explain why the VA is advocating for the authority 
to use this contract examination in more than 15 regional 
offices.
    Mr. McLenachen. Without a doubt, as you mentioned in your 
opening statement, this is a very, very important issue for the 
department. If we are going to timely decide disability 
compensation claims, the ability to get an exam quickly, a good 
quality exam quickly, is critical to making that decision 
within 125 days. If we do not have the available exam resources 
through the contract option, it makes it very difficult to 
accomplish that important goal.
    Dr. Abraham. Okay, thank you. And of course you are the 
witness. Regarding H.R. 1380, please explain why the VA 
supports expanding the eligibility for a medallion that is 
furnished by the VA in order to signify the person's status as 
a veteran, but only for veterans who served on active duty on 
or after April 6th, 1917.
    Mr. McLenachen. Mr. Chairman, that is Mr. Sullivan's area 
of expertise, I will defer to him on that.
    Mr. Sullivan. Mr. Chairman, we strongly support the goal to 
expand eligibility for the medallion to veterans. Our request 
is to amend the bill language to provide this expansion of 
eligibility for the medallion for those veterans who had a 
qualifying period of service on or after April 6th, 1917, which 
is the date that the U.S. interred World War I. We make this 
request because there is significant impact that this bill 
could have on the landscape of our national cemeteries, 
especially our historic national cemeteries, and our ability to 
maintain the historic headstones and markers, and the ability 
for VA to comply with our National Historic Preservation laws 
and regulations.
    There are 115 national cemeteries out of our 132 that are 
currently on Federal Historic Register and those could be 
significantly impacted by the expansion of this eligibility to 
all veterans, including those that had a period of service 
before the April 6th, 1917.
    Secondly, we think that by setting that eligibility date 
with the period of qualifying service for April 6th, 1917, our 
data shows that we would still be able to cover the majority of 
those otherwise eligible veterans that have been denied this 
benefit. Fully 91 percent, which is a vast majority of those 
applicants that have been denied and would have otherwise been 
eligible because they died before 19--I am sorry, before 1990 
would now become eligible because their period of qualifying 
service would have taken place on or after November 1st, 1917.
    Dr. Abraham. Mr. McLenachen, you state that a significant 
factor contributing to the delay in certifying appeals to the 
Board of Veterans Appeals is that the claimants may identify 
additional supportive evidence after filing a substantive 
appeal and before the appeal is certified to the VBA, in what 
percentage of the cases does that occur?
    Mr. McLenachen. I don't have that precise information with 
me, but I would be happy to provide that to you for the record, 
sir.
    Dr. Abraham. Okay, that will be fair enough. And I will of 
course stay with you.
    In your testimony again, Mr. McLenachen, you raised 
concerns that the study mandated by H.R. 1338 may be premature. 
Isn't it appropriate for the VA to study the changes NCA has 
implemented since the enactment of the Dignified Burial and 
Other Veterans Benefits Improvement Act of 2012 in order to 
better evaluate whether additional modifications may be 
required?
    Mr. McLenachen. Yes, that is true, but I will again defer 
to Mr. Sullivan, Mr. Chairman.
    Mr. Sullivan. Mr. Chairman, again, we do strongly support 
that goal of ensuring that the unclaimed veterans' remains 
receive dignified burials and memorialization. And we 
appreciate the intent of the bill to study the scope of issues 
related to that matter. However, we believe that our time and 
resources right now are better spent on implementing those 
existing authorities that we have, especially those new 
authorities that you mentioned that we received through that 
Dignified Burial and Other Veterans Benefits Improvement Act of 
2012.
    We have taken significant actions to implement those 
authorities and to facilitate the timely interment of unclaimed 
veterans' remains. I have just implemented recently two new 
programs, one to provide reimbursement for the cost of casket 
and urn to those third parties who had to expend those costs in 
the interment of unclaimed veterans' remains, as well as to 
provide a cost--I am sorry, provide reimbursement for the cost 
of transportation and other funeral expenses for the interment 
of unclaimed veterans' remains, again, better interred in our 
national cemeteries.
    We think that with some time, especially to capture some 
data to look at the effectiveness of these programs, assess the 
efficacy of those programs in facilitating the interment of 
unclaimed veterans' remains, we may be able to identify the 
sources of delay, as well as collect more information data that 
could be used to inform such efforts in the future.
    Dr. Abraham. Okay, thank you.
    Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    I would just ask Mr. Sullivan some questions about national 
cemeteries and the 11 states that don't currently have them, 
most of them in the West. I wonder if under the current policy 
the way it is defined of how you locate cemeteries if you 
anticipate that there will be a national VA cemetery in any of 
those 11 states that don't have one now? Now, I am not talking 
about a rural initiative, I am talking about a regular national 
veterans' cemetery.
    Mr. Sullivan. Yes, Congresswoman. We have a long-held, 
established policy on establishment of new national cemeteries. 
It is a database policy based upon the distribution of the 
veteran population across the United States. It is our belief 
that through this strategy to serve the greatest densities of 
veteran population that are currently unserved by locating 
national cemeteries in those areas allows us to provide broad 
access and increased access for veterans to a burial option in 
a national or state veterans' cemetery.
    Ms. Titus. So do you think there will be a national 
cemetery in any of those 11 states ever because of the way the 
formula is construed that has been so long held?
    Mr. Sullivan. Congresswoman, I believe that right now our 
plan does not allow us--our plan does not have any national 
cemeteries in those 11 states, but I can't state whether in the 
future we may adjust those policies to place a national 
cemetery in one of those 11 states.
    As you are aware, because we are focusing on that strategy 
to provide the greatest population densities of unserved 
veterans with a burial option, we are targeting, you know, four 
new national cemetery establishments within the next three 
years. Those are in southern Colorado, western New York, Omaha, 
Nebraska, and Cape Canaveral, Florida.
    We do also have plans again to implement our rule 
initiative, which would put a national cemetery presence in 
those states, eight of those states that you mentioned. Those 
states that do not currently have a national cemetery and do 
not have--are not already served 100 percent by an existing 
state veterans' cemetery or a neighboring national cemetery. So 
we do have some plans to try to address the rural populations 
in those eight states and we believe that as we continue to 
implement that plan we will be able to continue to increase 
that access for rural veterans.
    Ms. Titus. Well, those states that you mentioned that are 
getting another federal cemetery already have one and the 11 
states in the west don't have any. Are there any state 
cemeteries that have achieved national shrine status?
    Mr. Sullivan. Of the 11 state cemeteries that we visited to 
conduct our compliance review program audits, none have 
achieved the national shrine status yet. But again, of the 11 
that we did visit, we did have five that were completely--I am 
sorry, were compliant with our operational standards and 
measures that did not require corrective action plans. And of 
the six that did not fully comply with our standards and 
measures, they were provisionally compliant with corrective 
action plans in place. And since our visits, 83 percent of 
those action plans have been completed, bringing most of those 
state veterans' cemeteries into compliance with the same 
operational standards and measures, those national shrine 
standards that we hold for our national cemeteries.
    Ms. Titus. Are you all doing any kind of survey of veterans 
to see if they would prefer to be buried in a federal national 
cemetery as opposed to a state cemetery?
    Mr. Sullivan. Yes, Congresswoman. In 2014, we conducted our 
first survey of satisfaction with state and tribal veterans' 
cemeteries. We have conducted that for 13 years for our 
national cemeteries, but 2014 was our first year for the state 
and tribal veterans' cemeteries. And the data suggests that the 
state and tribal veterans' cemeteries are comparable to our 
national cemeteries. Fully 97 percent of respondents to the 
state and tribal veterans' cemeteries survey responded that 
they were satisfied with the overall quality of service, the 
overall satisfaction rate with our state and tribal veterans' 
cemeteries. That closely mirrors the 98-percent satisfaction 
rate that we have with our national cemeteries.
    Ms. Titus. Don't you think those results are skewed? When 
you ask people if they are satisfied with a state cemetery, 
that is a whole lot different from asking veterans out there 
who aren't using the state cemetery would they go a national 
cemetery if one existed. That is like asking somebody eating 
ice cream, do you like ice cream.
    Mr. Sullivan. Yes, Congresswoman. In an effort to try to 
get at what you are asking about, we did ask those next of kin 
that had a loved one buried in a state or tribal veterans' 
cemetery within the last year and who had also visited a 
national cemetery some questions to better understand the 
experience of those that are experiencing the state and tribal 
veterans' cemeteries.
    For those respondents, they again overwhelmingly responded 
that the experience at the state and tribal veterans' 
cemeteries was comparable to the national cemetery. Eighty six 
percent when asked, based upon their visits, did the appearance 
of the state or tribal veterans' cemetery, was that comparable 
to a national cemetery, they said agreed or strongly agreed 
that, yes, it did. Seventy nine percent agreed or strongly 
agreed that the state or tribal veterans' cemeteries, the 
quality of service was comparable to that of a national 
cemetery. Again, 79 percent also agreed or strongly agreed that 
the honor of being interred at a state or tribal veterans' 
cemetery was comparable to that of a national cemetery.
    And when asked, if they had the choice, would they have 
rather interred their loved one in a national cemetery versus 
that state or tribal cemetery, only 14 percent agreed or 
strongly agreed that they would have.
    So we believe that the state and tribal veterans' 
cemeteries are providing the high quality of care that we 
expect at our national cemeteries.
    Ms. Titus. Thank you, Mr. Chairman.
    Dr. Abraham. Thank you.
    Mr. Bost.
    Mr. Bost. Thank you, Mr. Chairman, and I have just got a 
few questions.
    Mr. McLenachen, is that correct? The 1384, the question I 
have, you said that there are many places where the change in 
that veteran's description would mess with other law; is that 
correct, is that basically what you said?
    Mr. McLenachen. Yes, that the core feature of the states 
that govern veterans' benefits and all the services that the 
Department of Veterans Affairs provides, as well as their 
benefits programs, is based upon that core concept of veteran 
status and it has always been tied to active duty military 
service, with the exception of National Guard or Reservists who 
are disabled or die while they are doing their active duty for 
training or inactive duty for training.
    Mr. Bost. And forgive my ignorance here. As a Marine 
veteran, I had always thought that if they served so many 
months in an active status they do get the veteran?
    Mr. McLenachen. Yes. So this bill concerns individuals who 
have had non-regular service for a period of 20 years until 
they reach the point of retirement from Reserve or National 
Guard service. So we are talking individuals who have had no 
active duty service and have not been disabled while they were 
doing their training in the Reserves or National Guard, they 
have only had non-regular service.
    Mr. Bost. Okay, all right. And then the other question is 
in regards to the medallions. The date--and I am sure that, Mr. 
Sullivan, you are going to want to answer this--let me ask 
specifically, because it has to do with my district. We have a 
veterans' cemetery that was established by Abraham Lincoln in 
Illinois. It obviously falls under that situation where it is a 
historical site. What exactly are your concerns with that? Is 
it for the tombstone, the defacing of the tombstone? Or kind of 
explain to me, if you could.
    Mr. Sullivan. Yes, Congressman. We are concerned with 
affixing a bronze medallion, based upon the size, it can be a 
small, medium or large one, affixing a bronze medallion to 
headstones and markers that in many cases could be over a 
hundred years old that are in these cemeteries, many of them 
which are Civil War era cemeteries. So we do think that there 
could be some issues with complying with laws and regulations 
that govern that, as well as doing damage to these historic 
headstones and markers.
    Mr. Bost. So that is the reason for your suggestion of the 
date of the first day of the first World War; is that correct?
    Mr. Sullivan. Yes, sir. If we did set the eligibility date 
on or after April 6th, 1917, in terms of having a period of 
qualifying service at that time, that we would be able to avoid 
most of those concerns because they would most of the time be 
headstones or markers or in cemeteries that are more recently 
established or placed into the ground.
    Mr. Bost. The first national cemetery was established in 
what year, do you know?
    Mr. Sullivan. I am sorry, I would have to provide that 
response for the record.
    Mr. Bost. Okay, if you could just find it at some point, 
because I am trying to figure out do we have an idea of a total 
how many cemeteries this would affect that do not receive them, 
you know, I mean, how many are on the historical register.
    Mr. Sullivan. Yes. We do have 115 of the 132 current 
national cemeteries that are on the National Register of 
Historic Places.
    Mr. Bost. Okay.
    Mr. Sullivan. And we also have the additional 33 soldier 
slots burial sites that would most likely be under those 
historic preservation requirements.
    Mr. Bost. Repeat that one more time, I am sorry.
    Mr. Sullivan. The 33 burial lots, the soldier slots, 
Confederate monument sites, again mostly from that Civil War 
era and before then, that would be again subject to these 
historic preservation laws and regulations that would be at 
risk we think with this medallion benefit.
    Mr. Bost. Okay, thank you.
    I yield back.
    Dr. Abraham. Thank you, Mr. Bost.
    All right. Thank you, gentlemen, you are excused.
    And I now recognize our final panel of witnesses today. Mr. 
Zachary Hearn, the Deputy Director for Claims Veterans Affairs 
and Rehabilitation Division at the American Legion; Mr. Paul 
Varela, the Assistant National Legislative Director for the 
Disabled American Veterans; Mr. Aleks Morosky, the Deputy 
Director of the National Legislative Service at the Veterans of 
Foreign Wars of the United States; Ms. Diane Zumatto, the 
National Legislative Director of AMVETS; and Mr. Christopher 
Neiweem, the Legislative Associate at the Iraq and Afghanistan 
Veterans of America.
    I thank you all for being here. We thank you for your hard 
work and certainly being advocates for veterans.
    Mr. Hearn, we will start with you. Five minutes, sir.

    STATEMENTS OF ZACHARY HEARN, DEPUTY DIRECTOR FOR CLAIMS 
  VETERANS AFFAIRS AND REHABILITATION DIVISION, THE AMERICAN 
    LEGION; PAUL R. VARELA, ASSISTANT NATIONAL LEGISLATIVE 
  DIRECTOR, DISABLED AMERICAN VETERANS; ALEKS MOROSKY, DEPUTY 
  DIRECTOR, NATIONAL LEGISLATIVE SERVICE, VETERANS OF FOREIGN 
  WARS; DIANE ZUMATTO, NATIONAL LEGISLATIVE DIRECTOR, AMVETS; 
     CHRISTOPHER NEIWEEM, LEGISLATIVE ASSOCIATE, IRAQ AND 
                AFGHANISTAN VETERANS OF AMERICA

                   STATEMENT OF ZACHARY HEARN

    Mr. Hearn. Good afternoon, Chairman Abraham, Ranking Member 
Titus and members of the committee.
    On behalf of National Commander Mike Helm and the over two 
million members comprising the American Legion, I am pleased to 
offer remarks regarding pending legislation.
    The slate of bills offered covers a wide range of topics, 
proof that the impact of the Department of Veterans Affairs and 
its benefits are due to the wide-ranging needs of the veterans 
community, many of whom have physical and emotional scars 
related to their service in the armed forces.
    H.R. 303, the Retired Pay Restoration Act, entitles 
military retirees with a disability rating less than 50 percent 
to receive their VA disability payment concurrent with their 
military retirement. The unfortunate truth is that the current 
structure establishes two classes of veterans, those that 
receive a military retirement and those that do not. If a 
veteran retires from the military and has less than a 50-
percent disability rating, the veteran cannot receive the 
disability payment concurrent with military retirement.
    The concept of VA disability is to compensate the veteran 
for loss of wages due to a disability incurred in service. If a 
veteran's disability is offset in the military retirement and 
that doesn't yield the same result, then it is clearly not 
beneficial to the veteran, nor does it properly compensate for 
the condition.
    The American Legion fully supports veterans receiving their 
full disability compensation associated with their dedicated 
service and support H.R. 303.
    VA's battle with its backlog of claims is well known and VA 
should be commended in its efforts to reduce the backlog. 
However, in its attempt to eliminate its backlog, it appears 
that it has traded one difficulty for another.
    On June 7, 2010, VA's Monday morning workload report 
indicated over 192,000 appealed claims were awaiting 
adjudication. Five years later, that figure has exploded to 
exceed 305,000 claims, an over 58-percent increase.
    Although H.R. 1302, does not eliminate the backlog of 
appeals, it does expedite the manner that the claims are to be 
certified to the Board. Over the past year, the VBA has kept in 
close contact with us regarding the impending onslaught of 
cases to be reviewed at the Board. As a result, the American 
Legion recently authorized the hiring of additional staff to 
support the incoming cases requiring American Legion 
representation.
    Through passage of H.R. 1302, cases will no longer languish 
at the regional offices awaiting certification for well over a 
year, and we support passage of H.R. 1302.
    Beginning with the scandal in Phoenix last summer, the 
American Legion began conducting outreach events throughout the 
nation to assist veterans attempting to gain access to their 
earned benefits. During the events, we also meet with VA 
Medical Center leaders to discuss concerns surrounding their 
facility.
    We have visited rural locations such as Clarksburg, West 
Virginia and Harlingen, Texas, and urban locations such as Los 
Angeles and Philadelphia. Regardless of location, whether urban 
or rural, a common complaint is that VA is unable to recruit 
medical professionals. The American Legion insists that VA's 
inability to recruit medical professionals should not hamper a 
veteran's adjudication of a benefit.
    H.R. 2214 provides VA the ability to enter into contracts 
with private physicians to conduct medical disability 
examinations. Through passage of this bill, Congress will be 
able to provide the tools to VA to conduct the compensation and 
pension examinations in a timely fashion, and have the veteran 
gain access to the benefits earned through their dedicated 
service.
    Again, on behalf of National Commander Mike Helm and the 
over two million members of the nation's largest veterans 
service organization, we thank you for the invitation to offer 
our testimony and I will be happy to answer questions posed by 
the committee.
    Thank you, Chairman.

    [The prepared statement of Zachary Hearn appears in the 
Appendix]

    Dr. Abraham. Thank you, Mr. Hearn.
    Mr. Varela, five minutes.

                  STATEMENT OF PAUL R. VARELA

    Mr. Varela. Good afternoon, Dr. Abraham, Ranking Member 
Titus and members of the subcommittee. DAV appreciates the 
opportunity to discuss the merits of the bills before us today.
    I will begin with two bills that are fully supported by 
DAV, H.R. 303 and H.R. 2691.
    H.R. 303 would repeal the unfair offset currently imposed 
upon longevity military retirees when they are rated less than 
50 percent for service-connected disabilities. This legislation 
would bring parity with their longevity retiree counterparts 
that are authorized to receive their full military retirement 
and VA disability compensation when they are rated greater than 
50 percent for service-connected disabilities.
    H.R. 2691 would improve and streamline claims processing 
for survivors. The bill would allow a claim to be registered 
with the VA when a survivor notifies the VA of a veteran's 
passing. In instances where the record contains sufficient 
information to award survivor's benefits, VA would be 
authorized to make such an award.
    We are pleased to see the introduction of these two bills 
in the 114th Congress and look forward to working together to 
see these legislative initiatives enacted into law.
    For H.R. 2214, DAV supports the provisions of the bill 
expanding VA's authority to enter into contracts with private 
physicians to conduct medical C&P examinations from 12 VA 
regional offices to 15, and extends the program until December 
31st, 2017. We also urge the subcommittee to consider the 
merits of removing the cap placed on the number of VA ROs that 
can utilize contract examinations and make it available to all 
VO ROs as a means to improve claims processing.
    For the following bills, H.R. 1338, 1380, 2706, DAV has no 
resolution from our membership pertaining to the issues 
identified within these bills, but would not oppose passage of 
the legislation.
    For H.R. 1384, 2001, 2605, DAV has no resolution pertaining 
the issues outlined within these bills and takes no position.
    Finally, H.R. 1302. DAV opposes H.R. 1302 in its current 
form. The bill would require to certify appeals no later than 
one year after the date VA receives the VA Form 9. The bill 
seeks to reduce the amount of time an appellant must wait for 
VBA to certify an appeal to the Board of Veterans Appeals, also 
known as the Board.
    We recognize the sponsor's intention to shorten this 
lengthy appeals process. However, the bill could create 
unintended adverse consequences for appellants. Requiring VBA 
to meet a hardened time limit raises several concerns.
    First, the purpose of VBA's certification process is to 
ensure that all administrative and adjudicative procedures have 
been completed locally before an appeal is forwarded to the 
Board. VBA performs this record review to ensure that all 
issues have been properly addressed and that outstanding 
appeals for interrelated issues have not been overlooked. The 
purpose is to avoid unnecessary Board remands.
    If VBA were forced to meet a one-year arbitrary 
certification deadline, errors and oversights would likely 
occur even more frequently and ultimately bring harm to 
appellants. VBA's staff may be compelled to simply certify 
these appeals without performing a thorough record review to 
meet this mandated deadline. This could result in increased 
Board remands, further delaying the appeals process.
    Second, if an appeal requested a hearing before the Board 
and conjunction with an appeal and made that selection on the 
VA Form 9, the bill as written suggests that VBA must certify 
the appeal to the Board with or without conducting the hearing. 
As it stands today, an appeal cannot be certified if it carries 
an outstanding hearing request.
    On January 2nd, 2015, DAV testified before this 
subcommittee regarding the appeals process and provided 
Congress with several recommendations to improve this process 
that were to strengthen the decision review officer program, 
create a new fully developed appeals pilot program, improve the 
rating board decision notification process. Although we 
appreciate the sponsor's intentions, for the reasons outlined 
above, DAV must oppose the bill in its current form.
    Many of the issues plaguing VBA are resource related. Quite 
simply, VBA's personnel-to-workload ratio has been mismatched 
for quite some time in its attempt to do more with less. 
Consider that in the fiscal year 2016, VSO, independent budget 
recommendations, DAV and our VSO counterparts called for an 
additional 1,700 additional FTE for VBA, 850 as full-time 
employees, and 850 as two-year temporary employees. The 
Administration only requested 770 new FTE. VBA needs the people 
and the resources to keep up with the work. Dr. Abraham, 
Ranking Member Titus and members of the Subcommittee, we look 
forward to working together to identify practical solutions to 
better VBA's appeals process. This concludes my testimony and 
I'm prepared to answer any questions you may have. Thank you.

    [The prepared statement of Paul R. Varela appears in the 
Appendix]

    Dr. Abraham. Thank you, Mr. Varela. Mr. Morosky, you have 
five minutes for the Veterans of Foreign Wars.

                   STATEMENT OF ALEKS MOROSKY

    Mr. Morosky. Chairman Abraham, Ranking Member Titus and 
Members of the Subcommittee, on behalf of the men and women of 
the Veterans of Foreign Wars of the United States and our 
auxiliaries, I'd like to thank you for the opportunity to offer 
our thoughts on today's pending legislation.
    The VFW strongly supports the Retired Pay Restoration Act 
which would allow all military retirees to receive VA service-
connected disability compensation without forfeiting any 
portion of their retirement pay commonly known as concurrent 
receipt. Military retirees with service-connected disabilities 
do not enjoy the same earning potential as non-disabled 
retirees. Therefore, the VFW believes it is critical that all 
disabled retirees are able to collect both benefits without 
offset in order to grant them true parity with their non-
disabled counterparts.
    The VA Appeals Backlog Relief Act would require VA regional 
offices to certify all appeal forms to the Board of Veterans 
Appeals no later than one year after receiving them. In the 
past, we've seen how placing unsteady time constraints on VA's 
processes can lead to employees and managers making bad 
decisions in an effort to meet the timeline.
    While the VFW agrees with the intent of this legislation, 
we would recommend this effort be studied as a pilot before 
full implementation across the department.
    The VFW supports the Dignified Interment of Our Veterans 
Act of 2015, which calls for a study of NCA's interment process 
of unclaimed remains to include the estimated number of 
unclaimed remains that VA processes, and the overall 
effectiveness of the procedures used to communicate with 
funeral directors and medical examiners.
    The VFW believes that every effort must be made to ensure 
that all veterans receive dignified burials, including those 
with no next of kin. The VFW supports H.R. 1380. Currently, VA 
may furnish a medallion for placement on a private marker for 
veterans who died on or after November 1, 1990. This bill 
rightly expands this honor to all veterans, regardless of the 
date of their death.
    The VFW strongly supports the Honor America's Guard and 
Reserve Retirees Act. Many who serve in the Guard and Reserve 
are in positions that support the deployments of their active 
duty comrades, making sure the unit is fully prepared when 
called upon. Although many of these men and women serve at 
least 20 years and retire from the Reserve component, they are 
not considered veterans according to the letter of the law. 
This bill will finally grant these Guard and Reserve retirees 
the recognition they deserve.
    The VFW supports the Disabled Veterans Access to Medical 
Examinations Improvement Act which would extend the authority 
of VA to contract with non-VA physicians to perform disability 
examinations set to expire at the end of the year. By extending 
the authority through 2017, this bill would continue to provide 
VA with the necessary tools to maximize veterans' access to 
medical care by freeing many VA physicians from the added 
responsibility of conducting disability evaluations.
    The VFW supports the intent of the Veterans Fiduciary 
Reform Act of 2015, protecting veterans from fraudulent 
fiduciaries. Providing them an appeal process to have a new 
fiduciary appointed and ensuring that veterans are capable of 
managing their own finances is critical.
    However, it is unclear to the VFW whether or not due 
process would be violated by the provision that would help the 
Secretary to appoint a fiduciary prior to the determination of 
incompetency. This would be countered due process provision in 
38 CFR Paragraph 3.353(d) and (e) which provides for the 
presumption of competency prior to the court order or 
competency hearing. We look forward to working with Congressmen 
Johnson to ensure the intent of this bill is realized and that 
veterans' due process is fully protected.
    The Veterans National Remembrance Act, this legislation 
would place states that do not currently have a national 
cemetery at the top of the priority list for future cemetery 
development.
    The VFW supports NCA's analytical system of identifying 
locations that have a need for veteran burial options which 
currently sets thresholds at 80,000 veterans within a 75 mile 
radius. We feel this allows NCA to accurately align their 
resources with demand. The VFW would support this bill if it 
were amended to place all locations that qualify or will 
qualify for a national cemetery on a priority list that grants 
preference to states that currently do not have a national 
cemetery when all other factors are equal.
    The VFW looks forward to working with Congresswoman Titus 
to find a compromise that will bring national cemeteries to 
states that do not have one, while ensuring that all veterans' 
burial needs are met.
    And finally, the VFW supports the Veterans Survivors Claim 
Processing Automation Act, which would allow VA to pay benefits 
to veterans' survivors who have not filed formal claims so long 
as there is sufficient evidence in the veterans' record to 
establish eligibility.
    The VFW believes that in no instance should a survivor be 
made to fill out unnecessary paperwork or resubmit evidence 
when adequate documentation is already on file. We also 
believe, however, that the survivor should have the opportunity 
when providing notification of the veteran's death to submit 
necessary documents that may not be contained in the records 
such as the death certificate without the need to file a formal 
claim.
    Chairman Abraham, Ranking Member Titus, this concludes my 
statement and I'm happy to answer any questions you or the 
other members of Committee may have. Thank you.

    [The prepared statement of Mr. Aleks Morosky appears in the 
Appendix]

    Dr. Abraham. Thank you Mr. Morosky. I will apologize. I 
have got to go (indiscernible).
    Mr. Bost. Ms. Zumatto, you are recognized for five minutes.

                   STATEMENT OF DIANE ZUMATTO

    Ms. Zumatto. Dr. Abraham and Representative Titus, I am 
just going to jump right in. The Retired Pay Restoration Act, 
AMVETS fully supports this legislation, both retirement pay and 
disability compensation are earned. They are two separate 
categories, and we believe that both should be received. This 
has been a longstanding goal of AMVETS, and also the Military 
Coalition.
    VA Appeals Backlog Relief Act, AMVETS does not support this 
legislation.
    The Dignified Interment of Our Veterans Act of 2015, AMVETS 
does support the intent of this bill, however, we do have 
several reservations which I outlined in my written testimony. 
So I won't repeat those now.
    H.R. 1380, AMVETS is very supportive of this legislation, 
which eliminates the current date of death requirement with one 
exception, and that is for historic cemeteries headstones. I am 
a trained historic preservationist, and so I am pretty well 
aware of not only the laws that you have to comply with, but 
also the intent of preserving a historic site the way it is and 
not adding new things to it. So we totally agree with NCA on 
that point.
    The Honor Americas Guard and Reserve Retirees Act, this is 
like the Representative Wall says, we have been working on this 
for years. You know, these people wore the same uniform that 
those of us on active duty did. They did the same jobs that we 
did, and I always use the example of my own experience. I did 
one three-year tour in the Army, and I am considered a veteran. 
But I know people who spent 25, 30, 40 serving in National 
Guard and they do not have the right to call themselves 
veterans. It just doesn't make sense. So we believe that it is 
the right thing to do and we would really like to see this come 
to fruition.
    The Veterans Second Amendment Protection Act, AMVETS does 
support this legislation. The Disabled Veterans Access to 
Medical Exams Improvements, we also support this legislation. 
We think there are several benefits, which I did include in my 
written testimony. We have not taken a position on the H.R. 
2605, although it is interesting that just a day or so ago 
somebody was giving me an example of a veteran who was 
essentially a prisoner of the person who was his fiduciary. So 
we do, you know, we think there is work to be done here, but I 
didn't really have a chance to fully review that piece of 
legislation. So at this point, I can't really take a position.
    The Veterans Survivors Claim Processing Automation, we 
support that. I think Representative Ruiz was right on with 
what he said. You know, when you are in the grieving process, 
the last thing you want to be doing is trying to figure out 
what forms do I have to fill out and all of that. So if all the 
information was already available to the VA, hey, then let's go 
ahead and expedite.
    The Veterans National Remembrance Act. You are passionate. 
I have to say that. I am not sure if this, you know, bill--we 
are not going to support it the way it is right now. We think 
so far the process that NCA is using is moving things forward. 
When that starts to fail, then you know, I think we should find 
another--a new way to figure out how to do this. And I guess 
that is the last one, so that concludes my testimony, and I 
would be happy to answer any questions.

    [The prepared statement of Diane Zumatto appears in the 
Appendix]

    Mr. Bost. Thank you Ms. Zumatto. And for five minutes, Mr. 
Neiweem, you're recognized.

                   STATEMENT OF CHRIS NEIWEEM

    Mr. Neiweem. Thank you, Chairman Bost, Ranking Member Titus 
and distinguished members of the Subcommittee. On behalf of 
Iraq and Afghanistan Veterans of America, our nearly 400,000 
members and supporters, thank you for the opportunity to share 
our views on these important bills today. And it is refreshing 
to see a fellow Illinois veteran in the chair, Mr. Chair.
    H.R. 2214, we support this legislation which would expand 
examination authority for physicians that examine veterans' 
claims for disability compensation. Too often veterans continue 
to wait for long periods of time to receive decisions on their 
claims for disability compensation. Extending examination 
authority and extending contracts with licensed physicians will 
ensure efficiency in this process and will go a long way to 
eliminating redundant medical examinations. This bill will aid 
VA in its goal to provide veterans timely and accurate medical 
examinations. We strongly support this.
    In 2013 IAVA strongly pushed down on VA to eliminate the 
disability claims backlog, and this is the kind of legislation 
that will continue to move the ball forward, and we are 
appreciative that it was introduced.
    H.R. 1380. This legislation would provide flexibility 
regardless of the date of death of an individual to be eligible 
to receive a medallion or other device that signifies status. 
Strongly support the legislation. I am glad Chairman Miller was 
introducing it and put it forward.
    We understand H.R. 2001 has been removed from the docket 
today. Happy to allow our position to be submitted for the 
record and look forward to discussing it at a future date.
    H.R. 303. This legislation would express a sense of 
Congress that military retired pay should not be offset or 
otherwise cut back because a veteran also earned, emphasis on 
earned, disability compensation. This bill would also remove 
the phase-in periods for concurrent receipt and for individuals 
who are retired or separated from military due to a service-
connected disability, make them eligible for the full 
concurrent receipt of disability compensation and either 
retired pay or CRSC. Let's keep in mind that these veterans, 
especially those that are eligible for CRSC, have sustained 
injuries in combat. These are the last individuals that should 
be the targets of federal savings. IAVA strongly supports this 
legislation and many of our members have deployed not once, not 
twice, not three, but even four times and continue to step up. 
So we want to make sure that we are guarding against that. 
Appreciate the legislation.
    H.R. 1338. This bill would require the Secretary of VA to 
study and report to Congress in a few key topic areas that 
relate to the issue of veteran burial and interment in national 
cemeteries and under the authority of NCA. This requirement 
would extend to identifying how many unclaimed remains exist in 
estimated figures. The bill would additionally require VA--
current VA procedure to be the subject of review and further 
examine how those policies comport with state and local laws to 
allow the Secretary of VA to administer in this area.
    The last key provision would require recommended 
legislative or administrative actions that can improve the way 
our government handles the remains of our veterans as we work 
to ensure they have a dignified final resting place, and we 
strongly support the legislation.
    Looking at H.R. 1302. The legislation requires that a 
(indiscernible) certify a veteran appeal submission within one 
year of receipt. In a time when too many veterans again 
continue to feel that the VA claims process moves at a glacial 
pace, we support legislative requirements that mandate timely 
action, especially as we look at the current statistics with 
520-day waits for remands in the appeals process. We've got to 
continue to double down and make this a focus so we can get 
this right.
    Turning to H.R. 2605, the administration of VBA benefits to 
fiduciaries serving our veterans is a very technical and 
difficult task, and we greatly respect the work of the 
department to that end. And this bill is seeking to make it 
work better. Our goal in this topic is to achieve the balance 
of ensuring the benefits are being paid and administered in 
such a way that accurately supports the veterans and their 
fiduciary, while at the same time not burdening them with 
excessive barricades to getting that support.
    This bill would clarify the rules of fiduciaries to include 
a process by which temporary fiduciaries may be appointed to 
veterans. The bill would also provide a comprehensive set of 
reforms to supervise fiduciaries and clarify how investigations 
and the results of those actions should be administrated. This 
includes recourse for overpayments and the misuse of funds. The 
support Congress has given disabled veterans and the 
collaboration with VSOs to that end, and especially in the 
years since the Iraq and Afghanistan wars, has been strong. We 
have some of the strongest benefits now than at any time in 
history. However, the complexity of those benefits will require 
congressional oversight and perennial stakeholder input.
    H.R. 1384. Simply put, this does not create any new 
benefits that would allow--but would rather allow our Reserve 
and Guard service members who serve on orders that are 
currently outside the scope of what classifies them as veterans 
be given that title in law. This is has been a longstanding TMC 
goal with our partners and allies of the veteran community, and 
IAVA joins Rep. Walz and our allies at TMC in supporting this 
bill. And since the Groundhog Day reference is already used, I 
will use an original one. This issue is as perennial as the 
dress. Every single year we come back to it. The House passed 
it. We have got to get it done. We have got to get this right. 
I yield back, and I'm happy to answer any questions you may 
have.

    [The prepared statement of Chris Neiweem appears in the 
Appendix]

    Mr. Bost. Thank you. And thank you to all of the panel. And 
we are going to go ahead and open up to questions. And I am 
going to yield myself five minutes. If I could, Mr. Morosky, in 
your written testimony you stated that although the VFW 
supports the intent of House resolution 2605, it has concerns 
about the provisions authorizing appointment of a temporary 
fiduciary prior to the determination of incompetency. Can you 
kind of expand there with the concerns that you might have?
    Mr. Morosky. Sure, Mr. Chairman. And I want it to be clear 
that this bill does a lot of things and the VFW supports all 
the other provisions of this bill. I mean, you know, allowing 
the beneficiary to request an appointment of a new fiduciary 
without interruption, you know, requiring VA to conduct audits 
and investigate and report wrongdoing, these are all good 
things. It was just that one provision that was brought by one 
of our staff attorneys, and it was brought to our attention 
that if the Secretary were to appoint or produce a fiduciary on 
a temporary basis, and I believe the language is for 120 days 
prior to the determination of incompetency, then it could be in 
conflict with another portion of the code which provides for 
the presumption of competency prior to the court order. So we 
would be happy to work with the sponsor.
    Mr. Bost. Yes, I was going to ask you if have--what 
suggestions you might have.
    Mr. Morosky. And we would be happy to work on the sponsor 
with that, and you know, so that we can support this bill.
    Mr. Bost. One question I also have for the whole panel, I 
know, Ms. Zumatto, you said that for historical purposes, and 
it is a concern of mine, I mean, all of us want our veterans to 
be honored to the best possible point. My question is with the 
other members of the panel, would a date change that it would 
be First World War to protect the integrity of the headstones 
of those veterans that served before be in agreement or is 
there concerns that is out there from any of your 
organizations?
    Mr. Morosky. The American Legion obviously supports 
honoring the veterans in the way that you had mentioned, 
Chairman. I don't believe anybody at the American Legion has 
the preservation skills that my colleague here does in dealing 
with historical markers. So I do understand somewhat of what 
she says, but we obviously we fully support providing that or 
sending an earlier date, but at the same time we don't want to 
create a situation where we are damaging materials as suggested 
by our colleague.
    Mr. Bost. Anyone? Okay. Thanks. Mr. Hearn, you stated that 
the Legion supports House Resolution 1302, please describe how 
it would expedite the appeals process if the VA were required 
to certify a VA Form 9 within one year of receipt?
    Mr. Hearn. Thank you. As it stands now, I believe according 
to the most recent Monday morning workload reported, you are 
looking at somewhere 16 to 18 months getting close to 2 years 
before the average claim is getting sent up. I think I said 620 
days. Knocking it down to 365 days is really three times the 
amount that VA has promised its veterans that they would 
adjudicate the original claim. Since VA is no longer taking 
informal claims, I guess they will have extra things to do, 
they will be able to handle that. Again, the staffing issue 
might be something that we need to examine a little bit 
closely. But the fact that you have cases languishing there for 
close to a year or over a year, I am sorry, to be certified to 
the Board. These are veterans in some cases that may be nearing 
homelessness, that are homeless, that are over 75, may have 
terminal illness. We need to get these claims adjudicated. I 
contacted the Board of Veterans Appeals this morning, and while 
nobody could provide me a hard date as far as American Legion 
cases were concerned, rough estimation is 500 veterans per year 
that the American Legion alone represents would be directly 
impacted on annual basis.
    Mr. Bost. Okay. Thank you. With that, I recognize Ranking 
Member Titus for any questions she may have at this time.
    Ms. Titus. Thank you very much. Mr. Sullivan mentioned that 
the VA had conducted a non-scientific poll of the people who 
use state and tribal cemeteries. I don't know how many people 
were in that sample, but I would ask all of you, have you 
polled your members and asked them the question that if a 
national cemetery were available, would you rather be buried in 
the national cemetery or in a state cemetery. Just go down the 
row.
    Mr. Morosky. I would just say, Madam Ranking Member, that 
we need to do that. That is a great question. We have not 
polled our membership. And that is a great question, and we can 
look at doing a flash poll on that and ascertain that 
information for future use.
    Ms. Titus. That would be great. Thank you.
    Ms. Zumatto. We have not polled our members, but as you saw 
in the written testimony, I did finally get to a couple of 
state cemeteries recently. And honestly I noticed almost a 
family feeling while I was there. The people that live around 
these cemeteries refer to it as their cemetery. They take a lot 
of pride in them. And because they are such an integral part of 
the communities, the sense that I got is the folks that--the 
veterans that are living there, yeah, they are very happy to be 
buried in the state cemetery. But no, we have not asked that 
question of our members.
    Ms. Titus. I imagine the people who live in Boulder City, 
that little community of few people outside of Las Vegas, do 
like that cemetery and do like to be buried there, but that is 
really not the question. Yes?
    Mr. Neiweem. We have never conducted a poll, Congresswoman. 
But we have heard from people who have called us up and from 
veterans from states who don't have one, and have told us, you 
know, we think that it would be nice if we did. Of course, they 
all have state cemeteries but they would also like a national 
cemetery as well. We think that maybe one solution to this 
would be to just increase transparency of the process. I mean, 
you did just ask the gentlemen from NCA if there was going to 
be a national cemetery any time soon in any of those 11 states, 
and, you know, he couldn't really give you an answer. Maybe if 
there were more transparency, if veterans from those states 
knew where they fell on the list, it would sort of increase 
satisfaction a little bit more just knowing that where they 
fell in the priority.
    Mr. Varela. Ranking Member, I would like to take that 
question for the record just to be sure. The history of this 
issue goes back probably before I got up here to our 
legislative staff. I don't remember that coming up. I haven't 
heard it mentioned, but I will bring it back and find out if 
that is also an option.
    Ms. Titus. Thank you.
    Mr. Hearn. Ranking Member, similar to Paul, I will take 
this back to the American Legion who handles this in his 
portfolio and see if I can get an answer for you.
    Ms. Titus. Thank you very much.
    Mr. Hearn. You are welcome.
    Ms. Titus. You know, you mentioned transparency and I think 
that is important. So if we can't get this old formula changed 
that has been in place for so long and discriminates against 
veterans who live in those 11 states, maybe we can at least 
work together to get a set of standards that need to be met to 
receive the National Shrine Designation, and if those 
cemeteries don't meet it, veterans will at least know that they 
are not being in a place that meets that National Shrine 
standard. So maybe you can help me work on that.
    I would just ask you one last little quick question too. It 
is something I mentioned in my opening statement. If the 
Supreme Court hands down a ruling that strikes down all 
existing state bans on marriage equality, do you think the VA--
it is time to change the veterans law so that all veterans 
regardless of their marital status and who they are married to 
and where they live get the same benefits?
    Mr. Morosky. Madam Ranking Member, we support your 
legislation, supported it previously, and continue to support 
it.
    Ms. Titus. I appreciate that a lot. Thank you.
    Mr. Morosky. Madam Ranking Member, the VFW believes that a 
veteran is a veteran and all those should be treated equally.
    Mr. Bost. I believe that this was not on the agenda.
    Ms. Titus. Well, it wasn't. I mentioned it in my opening 
remarks, that is why I thought it would be appropriate to.
    Mr. Bost. I don't think it is appropriate at this time. 
Thank you.
    Ms. Titus. That is the problem. You don't think it is 
appropriate. Thank you anyway.
    Mr. Bost. Thank you to the Ranking Member. And if there is 
not anyone else seeking questions. As there are no further 
questions, I want to thank everyone here today for taking the 
time to come share their views on these nine bills. This is 
very important to the legislative process, and we appreciate 
your insight and feedback. I ask unanimous consent that the 
written statements provided by Representative Latta and Shuster 
and other submitted statements be placed in the hearing record. 
Without objections, so ordered. Finally, I ask unanimous 
consent that all members have five legislative days to reserve 
and extend the remarks, include extraneous material on any of 
all bills under consideration this afternoon. Without 
objection, so ordered. This hearing is now adjourned.
    [Whereupon, at 3:56 p.m., the subcommittee was adjourned.]

                                APPENDIX

              Statement of Honorable Bill Johnson (OH-06)

    Chairman Abraham, Ranking Member Titus and Members of the 
Subcommittee:
    I appreciate the opportunity to testify before you on H.R. 2605, 
important legislation I introduced to reform the Department of 
Veterans' Affairs (VA's) Fiduciary Program.
    As many of you know, I served as the Oversight and Investigations 
Subcommittee Chairman on the House Veterans' Affairs Committee for the 
112th Congress. An investigation into the VA's Fiduciary Program by my 
subcommittee revealed shocking behavior on the part of the VA's hired 
fiduciaries, and gross malfeasance on the part of the VA. Some 
fiduciaries--entrusted to manage the finances of our nation's heroes 
who are unable to do so themselves--were caught abusing the system by 
withholding funds, embezzling veterans' money and other egregious 
actions.
    Furthermore, I chaired an Oversight and Investigations Subcommittee 
hearing held on February 9, 2012, that exposed that many of the VA's 
Fiduciary Program policies do not correspond with actual practices. For 
instance, the VA claims to have a policy stating preference for family 
members and friends to serve as a veteran's fiduciary. However, the 
investigation into the Fiduciary Program revealed instances where this 
is not the case. In one instance, the VA arbitrarily removed a 
veteran's wife, who served as her husband's fiduciary for ten years, 
and replaced her with a paid fiduciary. There are also many honest and 
hardworking fiduciaries that experience difficulty performing their 
duties due to the bureaucratic nature of the VA's fiduciary program. We 
owe it to America's heroes to provide them with a fiduciary program 
that is more responsive to the needs of the veterans it is supposed to 
serve.
    I also had the opportunity to participate in this subcommittee's 
follow up hearing on the Fiduciary Program earlier this month. It was 
disheartening to hear that some of the same issues from 2012 are 
ongoing. Additionally, while the VA issued a proposed rule to modernize 
the Fiduciary Program in January 2014, the VA has yet to issue the 
final rule.
    For these reasons, I am proud to sponsor H.R. 2605, the ``Veteran's 
Fiduciary Reform Act.'' This important legislation, initially 
introduced in 2012, was drafted based on problems uncovered from O&I's 
hearing an investigation, as well as valuable input from veterans' 
service organizations and individuals who have experienced difficulties 
with the program firsthand. It is designed to transform the VA's 
Fiduciary Program to better serve the needs of our most vulnerable 
veterans and their hardworking fiduciaries. And, most importantly, it 
will protect veterans in the program from falling victim to deceitful 
and criminal fiduciaries.
    Specifically, the Veterans Fiduciary Reform Act would require a 
credit and criminal background check each time a fiduciary is 
appointed, and allow veterans to petition to have their fiduciary 
removed if problems arise. It would also decrease the potential maximum 
fee a fiduciary can receive to the lesser of 3 percent or $35 per 
month, similar to Social Security's fiduciary program. This will help 
discourage those who enroll as VA fiduciaries with only a profit motive 
in mind.
    Importantly, H.R. 2605 would enable veterans to appeal their 
incompetent status at any time. Additionally, it would allow veterans 
to name a preferred fiduciary, such as a family member.
    This legislation also addresses the requirement of fiduciaries to 
obtain a bond. While proper in some settings, it is inappropriate when 
it causes unnecessary hardship, such as a mother caring for her veteran 
son. This legislation would require the VA to consider whether a bond 
is necessary, and if it will adversely affect the fiduciary and the 
veterans he or she serves. H.R. 2605 would also direct the VA's Under 
Secretaries for Health and Benefits to coordinate their efforts to 
ensure that fiduciaries caring for their loved ones are not overly 
burdened by redundant requirements.
    Lastly, this bill aims to simplify annual reporting requirements. 
Currently, the VA does not have to review a fiduciary's annual 
accounting, and when it does, it places an onerous burden on those 
fiduciaries who are serving out of love, not for monetary gain. This 
bill will implement a straight forward annual accounting requirement, 
and give VA the opportunity to audit fiduciaries whose accounting is 
suspect.
    These significant changes would strengthen the VA's standards for 
administering the Fiduciary Program, and increase protection for 
vulnerable veterans. Requiring background checks and lowering the fee a 
fiduciary can charge would also increase scrutiny of potential 
fiduciaries, and help root out potential predators. This legislation 
also adds a layer of protection for veterans with fiduciaries by 
incorporating the ability for veterans to petition to have their 
fiduciary removed and replaced.
    I am proud that this legislation has passed the House of 
Representatives twice now--both in 2012 and in 2013 as part of larger 
legislation. Unfortunately, this important legislation has not been 
considered by the Senate, and therefore, the VA's Fiduciary Program is 
still in urgent need of reform.
    Chairman Abraham, Ranking Member Titus, thank you again for the 
opportunity to speak on this important legislation. I am hopeful that 
this legislation will again be favorably considered by the Veterans' 
Affairs Committee, and this time become law. Our veterans were willing 
to sacrifice everything to serve our nation, and they deserve to 
receive the care, benefits, and respect that they have earned.




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  Statement of Hon. Bob Latta (OH-05)

    Mr. Chairman,
    I thank you for the opportunity to provide a statement for the 
record for today's legislative hearing in the House Committee on 
Veterans' Affairs, Disability Assistance and Memorial Affairs 
Subcommittee, that includes strong bipartisan legislation I introduced, 
H.R. 1302, the VA Appeals Backlog Relief Act, which would help expedite 
the appeals claims process.
    Our great nation is blessed to have the bravest men and women in 
the world serving in our armed forces and putting their lives on the 
line every day in order to defend the freedoms we hold so dear. The 
sacrifices they make are incredible and it is incumbent upon Congress 
and the Department of Veterans Affairs (VA) to ensure they receive the 
timely care and benefits they have earned and deserve upon their return 
home.
    The VA's lack of timely claims processing, and the massive backlog 
that has been created, has long been a major problem. Thanks to the 
quality work of this subcommittee, and the full committee, a good deal 
of progress has been made; however, there is still more work to be 
done, especially on the appeals side.
    As it currently stands at the VA, there are at least 300,000 
appeals claims pending, with nearly 60,000 pending VA Form 9's with an 
average pending time of well over 600 days. In my home state of Ohio, 
county veterans service officers and veterans service organizations 
have contacted me regarding the possibility of five to ten year wait 
times on appealed issues, with a major cause of the delay due to the 
lengthy time it takes the local VA Regional Office (VARO), once they 
have received a completed VA Form 9, to certify the case to the Board 
of Veterans Appeals. In response, and with the input of these officers 
and organizations, I introduced the VA Appeals Backlog Relief Act. This 
important legislation would make it mandatory for all appeals claims to 
be certified to the Board of Veterans Appeals (BVA) no later than 12 
months after the VARO receives the completed VA Form 9, which is more 
than ample time to complete this process.
    I commend the Chairman and Ranking Member for their hard work and 
dedication to helping our nation's veterans and thank them, and the 
subcommittee, for including H.R. 1302 as part of this legislative 
hearing. I would ask my colleagues for their continued support of H.R. 
1302 so we can better fulfill our obligations to our nation's veterans.
    Thank you.
    Congressman Bob Latta

                                 <F-dash>

                 Statement of Hon. Bill Shuster (PA-09)

    Chairman Abraham, Ranking Member Titus and Members of the 
Subcommittee:
    Thank you for allowing me to testify today on behalf of my bill 
H.R. 1338, the Dignified Interment of Our Veterans Act of 2015.
    The issue of unclaimed veteran remains was first brought to my 
attention by two dedicated community servants from my district, Mr. 
Lanny Golden and Mr. Ron Metros. They catapulted my awareness of the 
tragic state of thousands of veteran remains and the important work 
being done by selfless volunteers associated with organizations like 
the Missing in America Project whose mission it is to locate, identify, 
and inter the unclaimed remains of American veterans.
    The Dignified Burial and Other Veterans' Benefits Improvement Act 
of 2012 placed shared responsibility on the Veteran Affairs 
Administration, veteran service organizations, and funeral directors to 
identify the veteran status of the deceased and make every effort to 
locate the next of kin. Despite the best efforts of these agencies, it 
is estimated that 47,000 unclaimed, uninterred veteran cremains remain 
on shelves collecting dust. The Pennsylvania State Coordinator for the 
Missing in America Project, who is also a licensed funeral director, 
estimates he has interred more than 125 unclaimed cremains from Western 
Pennsylvania in the last three years. We can speculate regarding the 
reason for this epidemic but we cannot know for sure without giving 
this issue the attention it deserves.
    In order to help address this problem, I introduced legislation 
that requires the Secretary of Veterans Affairs to conduct a study on 
matters relating to claiming and interring of unclaimed veteran 
remains. The intent of the study is to confirm the scope of this 
problem, uncover any barriers associated with claiming and interring 
veteran remains, and solicit recommendations from the Department of 
Veterans Affairs on potential program improvements. This is the first 
step in fixing this issue and bringing honor back to our fallen heroes.
    I would be remiss if I didn't highlight efforts by the Department 
of Veterans Affairs National Cemetery Administration to bolster 
outreach efforts over the last year and their implementation of new 
tracking protocols that ensure claimed veterans are interred within a 
timely manner. I'm confident they'll apply the same level of vigor in 
finding solutions to the obstacles that have yet to be uncovered.
    Lastly, I would like to say thank you to all who have served this 
great nation and ensure that your final resting place be of dignity and 
honor. We will not forget you.

                                 <F-dash>

                     Paralyzed Veterans of America

    Chairman Abraham, Ranking Member Titus, and members of the 
Subcommittee, Paralyzed Veterans of America (PVA) would like to thank 
you for the opportunity to provide our views on pending legislation 
before the Subcommittee.

H.R. 303, the ``Retired Pay Restoration Act''

    PVA supports H.R. 303, the ``Retired Pay Restoration Act.'' PVA has 
always strongly supported the repeal of the current inequitable 
requirement that a veteran's military retired pay based on longevity be 
offset by an amount equal to his or her VA disability compensation. 
Veterans are the only group of federal retirees that have to surrender 
a portion of their retirement pay to receive their disability 
compensation. This requirement essentially forces disabled military 
retirees to fund their own disability benefits.
    While this issue has always been about funding, PVA believes this 
is more about fairness. Is it fair that an individual who has done his 
duty and served 20 years of faithful service be penalized because he or 
she also became disabled during that service? PVA does not believe this 
is fair.

H.R. 1302, the ``VA Appeals Backlog Relief Act''

    PVA supports the intent of H.R. 1302, the ``VA Appeals Backlog 
Relief Act,'' and sees a level of value in it. We are concerned that 
there may be some instances where the veteran submits additional 
evidence or information with the substantive appeal that may require 
the VA to do additional development to assist the veteran in 
substantiating his or her claim. This development might preclude the VA 
from compliance with the certification deadline in some instances. 
Unfortunately, PVA does not believe this law would be enforced to the 
point that there would visibly be any significant change. In fact, some 
veterans' appeals could be negatively impacted if their appeal was 
certified prior to the receipt of supporting evidence, PVA recommends 
language allowing for an exception for those situations where 
additional development might be needed. PVA wholeheartedly supports 
seeking methods to reduce the time for certification as some appeals 
are waiting up to three years to be certified.

H.R. 1338, the ``Dignified Interment of Our Veterans Act of 2015''

    PVA supports H.R. 1338, the ``Dignified Interment of Our Veterans 
Act of 2015.'' All veterans who have honorably served in the military 
deserve a proper and dignified interment. Requiring the Secretary to 
conduct a study on the matters relating to the disposition of unclaimed 
remains is appropriate to ensure that all veterans receive the handling 
and recognition their service deserves.

H.R. 1380

    PVA supports H.R. 1380 to expand the eligibility for a medallion 
furnished by the Secretary to signify the veteran status of a deceased 
individual. By removing any limitation due to date of death of a 
veteran, all those who served will be eligible for the recognition they 
earned through their service.

H.R. 1384, the ``Honor America's Guard-Reserve Retirees Act''

    PVA supports H.R. 1384, the ``Honor America's Guard-Reserve 
Retirees Act.'' We believe everyone who raises their hand to support 
and defend the Constitution of the United States should be recognized 
for their service, to include the Guard and Reserve. The mission of 
many guard and reservists is to facilitate and support the deployments 
of their comrades, so the unit is fully prepared when called upon. 
Unfortunately, the law does not currently allow those who have served 
several years under non-federal status orders, and are entitled to 
retirement pay, TRICARE, and other benefits, to call themselves 
``veterans.'' These men and women have taken the same oath as an active 
duty servicemember and have made sacrifices that have earned the right 
to call themselves veteran. But at the same time, it is critical that 
these individuals recognize at their retirement that the title of 
``Veteran'' does not come with the benefits earned by those who have 
served on active duty for 20 years. This is our only concern, that 
there will now be a perceived ``double-standard'' on how we treat our 
``veterans.''

H.R. 2001, the ``Veterans 2nd Amendment Protection Act''

    PVA has no position on HR 2001, the ``Veterans 2nd Amendment 
Protection Act.''

H.R. 2214, the ``Disabled Veterans' Access to Medical Exams Improvement 
Act''

    PVA supports H.R. 2214, the ``Disabled Veterans' Access to Medical 
Exams Improvement Act.'' VA has had great success with the use of 
contract physicians. Extending the temporary authority until December 
31, 2017 will further support the effort to reduce the backlog and then 
provide additional authority beyond VA's backlog reduction goal to 
ensure the ability to maintain the 125 day decision goal. More 
importantly, if VA misses its 2015 backlog reduction target, contracted 
physicians will still be available to continue supporting the process 
with no additional legislation required.

H.R. 2605, the ``Veterans Fiduciary Reform Act of 2015''

    PVA supports H.R. 2605, the ``Veterans Fiduciary Reform Act of 
2015.'' Often beneficiaries languish and even die during the protracted 
effort to appoint a fiduciary. There have been many iterations of this 
legislation circulating for the last few years; this legislation 
addresses many concerns that have been expressed on fiduciary services. 
In particular, this legislation is taking steps to minimize the impact 
on family members who serve as fiduciaries and included a provision for 
caregivers.
    Efforts to appoint fiduciaries seem to have become worse following 
the centralization of fiduciary services. When these issues were 
handled at the regional office level, the local field examiners and 
estate analysts had a more personal awareness of beneficiary issues 
associated with incompetency ratings. Since the onset of 
centralization, it has become increasingly difficult to assist 
beneficiaries in situations where their welfare may be compromised. 
Practical options such as supervised direct pay are less likely to be 
utilized when functional contact between field examiners and rating 
activities is limited. Rating calculators do not effectively analyze 
the potential danger or lack thereof of paying benefits to 
beneficiaries who are rated as incompetent.
    With regards to notification to claimants, it is important to 
explain that what is needed to challenge a determination of competency 
is an expression of competency from a medical professional that 
addresses the ability to manage funds. Often documentation to support a 
negative determination will consist of statements that the individual 
receives help in paying the bills which clearly is an insufficient 
basis for determination.

H.R. 2691, the ``Veterans' Survivors Claims Processing Automation Act 
of 2015''

    PVA supports H.R. 2691, the ``Veterans' Survivors Claims Processing 
Automation Act of 2015.'' The legislation allows VA to pay benefits to 
a survivor who for whatever reason didn't file a claim as long as 
sufficient evidence of record existed to grant the claim. For example, 
in the case of a veteran who was known to have been exposed to Agent 
Orange and died of lung cancer, the VA could establish entitlement to 
DIC in the absence of a properly filed claim. In such a case the 
notification of death would become the date of claim. While this may 
not be the intent of the legislation, this could protect a date of 
claim which could otherwise be untimely and will ensure the survivor 
receives benefits their loved one earned. This is appropriate 
legislation that will pay benefits to a veteran's survivor as quickly 
as possible and streamline the process. In many cases, the benefits a 
disabled veteran receives may be the only family income.
    One change that PVA would like to see in the language is in Section 
2(B)(ii) that states `` . . . the date on which the survivor of a 
veteran notifies the Secretary of the death.....'' As in many cases 
with legislation, PVA believes this should read ``survivor or duly 
appointed representative'' to ensure it is clear that veteran service 
officers or others that may be assisting the survivor can act on their 
behalf. It may also be appropriate to include language referencing VA 
learning of the death from another federal agency such as the Social 
Security Administration or the Internal Revenue Service before a 
survivor may notify VA. Limiting notification to the survivor strikes 
PVA as being too narrowly defined. However, this being said, VA has 
already initiated a process to automatically begin payment of DIC to 
the spouse of record in cases where the veteran has been rated at 100% 
for ten years, without a requirement for the widow to file a claim. 
This legislation would better establish that process into law.

H.R. 2706, the ``Veterans National Remembrance Act''

    PVA supports H.R. 2706, the ``Veterans National Remembrance Act.'' 
With the rapid aging of our World War II population and increasing 
number of daily losses of these heroes, the need for National 
Cemeteries is increasing. It is critical that these veterans have the 
ability and the opportunity to lie for all eternity with their fellow 
veterans if they and their family so chooses.
    Mr. Chairman and members of the Subcommittee, we appreciate your 
commitment to ensuring that veterans receive the best benefits and care 
available. We also appreciate the fact that this Subcommittee has 
functioned in a generally bipartisan manner over the years. We look 
forward to working with the Subcommittee as we continue to provide the 
best care for our veterans.

Information Required by Rule XI 2(g)(4) of the House of Representatives

    Pursuant to Rule XI 2(g)(4) of the House of Representatives, the 
following information is provided regarding federal grants and 
contracts.

                            Fiscal Year 2014

    No federal grants or contracts received.

                            Fiscal Year 2013

    National Council on Disability--Contract for Services--$35,000.

Disclosure of Foreign Payments

    ``Paralyzed Veterans of America is largely supported by donations 
from the general public. However, in some very rare cases we receive 
direct donations from foreign nationals. In addition, we receive 
funding from corporations and foundations which in some cases are U.S. 
subsidiaries of non-U.S. companies.''

                                 <F-dash>

                 Statement of the Hon. Gus M. Bilirakis

    Chairman Abraham, Ranking Member Titus, and members of the 
Disability Assistance and Memorial Affairs Subcommittee,
    Thank you for holding this very important hearing and for the 
opportunity to discuss my bill, H.R. 303, the Retired Pay Restoration 
Act.
    Prior to 2004, existing laws and regulations dictated that a 
military retiree could not receive both payments from the DoD and the 
VA.
    Through the enactment of the Concurrent Retirement and Disability 
Payments (CRDP) program authorized within the FY 2004 NDAA, those who 
are 100% disabled were able to receive both earned benefits for the 
first time ever.
    Since then, the law has expanded the eligibility allowing more 
retirees to receive both payments--like those with 20 or more years of 
service and a 50% or higher disability rating through the VA.
    The program established a system which gradually phased in these 
payments through 2014, which is when these retirees would be receiving 
both payments in full.
    While our efforts have taken great strides towards resolving this 
issue, much more needs to be done. Statistics reveal that there are 
still nearly 550,000 military retirees who may be eligible to receive 
both military retired pay and VA disability compensation, but are 
unable to do so under the current guidelines of this program.
    In short, this means that there are 550,000 Veterans who are 
currently being denied the benefits they are entitled. Given their 
unwavering sacrifice to this great nation, I firmly believe we must 
provide the benefits they have earned. This is unacceptable, and this 
is why I continue to advocate for the Retired Pay Restoration Act, 
which my father sponsored during his time in Congress.
    H.R. 303 would serve to ensure that our nation's Veterans are not 
negatively affected by having their military retirement pay deducted by 
the amount of their VA disability compensation. Many have rightly 
argued that this represents an injustice for Veterans having one earned 
benefit pay for the other.
    Every Congress I am encouraged by the immense bipartisan support 
for my bill, the Retired Pay Restoration Act. Last Congress, H.R. 303 
received a total of 107 bipartisan cosponsors. This is a clear 
testament that both sides of the aisle recognize that this is an issue 
that needs to be rectified.
    We have the support from Veterans and the organizations that work 
closely with them. I greatly appreciate the support from our witnesses 
today; especially from the VSOs that came to testify before this 
Committee. It is clear that there is a need to do more in what we--as a 
nation--do in repaying the brave men and women for their sacrifice.
    Military retirement pay and service-connected disability 
compensation are two completely different benefits. One does not 
diminish the merits of the other.
    It is our responsibility to give our Veterans what has been earned 
through service to God and country. The question now is this: what do 
we intend to do about it?
    H.R. 303 is the clear answer. I urge all my colleagues to show your 
support for our nation's heroes by cosponsoring and supporting this 
bill. Let's get this done for our Veterans. Thank you.

                                 [all]
</pre></body></html>
